         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       An Overall Strategy Can Improve
       Communication Efforts at
       Asbestos Superfund Site in
       Libby, Montana
       Report No. 11-P-0430

       August 3, 2011
Report Contributors:                               Ganesa Curley
                                                   Allison Dutton
                                                   Christine El-Zoghbi
                                                   Ryan Patterson
                                                   Wendy Wierzbicki
                                                   Martha Chang
                                                   Eric Lewis




Abbreviations

CEP           Community engagement plan
CIP           Community involvement plan
EPA           U.S. Environmental Protection Agency
ERS           Environmental resource specialist
FAQs          Frequently asked questions
OIG           Office of Inspector General
OU            Operable unit


Cover photos: 	 from left: EPA information center staff, Libby, Montana;
                handouts at the EPA information center. (EPA photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                               11-P-0430
                                                                                                        August 3, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            An Overall Strategy Can Improve
In response to a congressional    Communication Efforts at Asbestos Superfund
request, we evaluated how the     Site in Libby, Montana
U.S. Environmental Protection
Agency (EPA) communicates         What We Found
information to the public at
the Libby Asbestos Superfund      Region 8 does not have an overall communication strategy to guide, coordinate,
Site in Libby, Montana.           and evaluate its communication efforts at the Libby Asbestos Superfund Site.
                                  Despite extensive communication efforts that exceed minimum Superfund
Background                        requirements, Region 8 has not fully satisfied community concerns about health
                                  risk or effectively communicated the limitations of its risk assessment. Libby
The Libby site includes           residents repeatedly raised questions about recontamination and EPA’s ongoing
portions of the towns of Libby    and planned activities, including the cleanup of operable unit 1 and activity-based
and Troy, Montana. An             sampling events, even though Region 8 has provided information on those
inactive vermiculite mine         subjects. Recurring questions may signify that Region 8 needs to address them
contaminated with naturally       more clearly.
occurring asbestos is located
7 miles outside of Libby.         We also found that some Region 8 outreach products may be difficult for Libby
About 12,000 people live          residents to understand. Some materials intended for the general public are written
within a 10-mile radius of the    for a highly educated audience. Understandable outreach products ensure that
town of Libby. EPA has            Region 8’s messages are successfully communicated to the public.
conducted cleanup activities at
the Libby site since 2000.        An overall communication strategy could help Region 8 assess the effectiveness of
EPA policy on community           and improve its communication activities. Region 8’s community engagement
involvement goes beyond the       plan could serve as the overall communication strategy with the addition of
letter of the law and             guidance-recommended elements. These elements include key messages,
recommends implementing           timelines, measures of success, and mechanisms for identifying public concerns
additional activities to ensure   and obtaining public feedback. The addition of these elements to the community
community participation in the    engagement plan may assist EPA in better addressing community concerns and
Superfund cleanup process.        helping the public make informed decisions regarding risk.

                                  What We Recommend

                                  We recommend that the EPA Region 8 Regional Administrator ensure that Libby
For further information,          outreach products are readable for a general audience. We also recommend that
contact our Office of
Congressional, Public Affairs     the Regional Administrator revise the Libby community engagement plan to serve
and Management at                 as the overall communication strategy by adding key messages to address specific
(202) 566-2391.                   public concerns and site activities, timelines for community involvement activities
                                  and outreach products, measures for successful communication, and mechanisms
The full report is at:
www.epa.gov/oig/reports/2011/
                                  for identifying community concerns and collecting feedback. We also recommend
20110803-11-P-0430.pdf            implementing a process for ongoing evaluation of Region 8’s communication.
                                  Region 8 agreed to take sufficient corrective actions.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                          August 3, 2011

MEMORANDUM

SUBJECT:	 An Overall Strategy Can Improve Communication Efforts at
          Asbestos Superfund Site in Libby, Montana
          Report No. 11-P-0430


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           James B. Martin
               Regional Administrator, EPA Region 8


This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $543,000.

Action Required
In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public website, along
with our comments on your response. Your response should be provided in an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective actions plan
for your actions, including milestone dates. We have no objections to the further release of this
report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at (202) 566-0832 or najjum.wade@epa.gov;
or Eric Lewis, Director, Special Reviews, Office of Program Evaluation, at (202) 566-2664 or
lewis.eric@epa.gov.
An Overall Strategy Can Improve Communication                                                                                11-P-0430
Efforts at Asbestos Superfund Site in Libby, Montana


                                    Table of Contents 


Chapters
   1	    Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                2     

                 Scope and Methodology ..............................................................................               3     


   2	    Overall Communication Strategy Needed for the 

         Libby Asbestos Superfund Site .......................................................................                      4


                 Libby Residents Concerned About Health Risks and Site Activities ...........                                       4

                 Readability Levels of Outreach Products Limit Communication ..................                                     5

                 CEP Could Serve as Communication Strategy With Addition of 

                       Key Elements ...................................................................................             6

                 Conclusion...................................................................................................      8     

                 Recommendations ......................................................................................             8     

                 EPA Region 8 Response to Draft Report and OIG Evaluation ...................                                       9


   Status of Recommendations and Potential Monetary Benefits..............................                                         10




Appendices
   A     Description of Operable Units at the Libby Asbestos Superfund Site..........                                              11


   B     Communication Strategy Key Elements ..........................................................                            12 


   C     EPA Region 8 Response to Draft Report .........................................................                           13 


   D     Detailed OIG Evaluation of EPA Response......................................................                             25 


   E     	Distribution .........................................................................................................   27

                                  Chapter 1

                                   Introduction
Purpose
            In August 2010, congressional requestors asked the U.S. Environmental
            Protection Agency (EPA), Office of Inspector General (OIG), to investigate
            EPA’s efforts to communicate the risks of asbestos exposure in Libby, Montana.
            In response, the OIG agreed to evaluate how EPA communicates information to
            the public at the Libby Asbestos Superfund Site.

Background
            Site History

            The Libby Asbestos Superfund Site includes portions of the towns of Libby and
            Troy, and an inactive vermiculite mine. The mine is 7 miles northeast of the town
            of Libby. About 12,000 people live within a 10-mile radius of the town of Libby.
            Vermiculite had been mined at the site since the 1920s. The vermiculite from the
            mine was contaminated with asbestos. Asbestos is a human carcinogen that causes
            mesothelioma and lung cancer. The mine closed in 1990, but may have produced
            up to 80 percent of the world’s vermiculite. EPA started cleanup activities in
            2000. In 2002, the area was listed as a Superfund site. Since 2007, EPA has
            conducted activity-based sampling as part of its overall site evaluation. The
            sampling measures personal exposure levels by simulating daily activities. EPA
            declared the site a public health emergency on June 17, 2009.

            The site is divided into eight cleanup areas, or operable units (OUs). Appendix A
            lists all eight OUs. OU1 and OU4 have been the focus of many community
            concerns identified in our evaluation. OU1 includes the former export plant and
            Riverside Park. EPA removed contaminated soil and issued a remedy in May
            2010 for OU1. OU1 will be referred to as the export plant in this report. As of the
            end of the 2010 construction season, EPA has conducted cleanups for parts of
            OU4, including 1,460 businesses and homes.

            Superfund Communication Strategies

            Code of Federal Regulations Chapter 40, Part 300.430, requires EPA to prepare a
            community relations plan. This plan is also referred to as the community
            involvement plan (CIP). The EPA Superfund Community Involvement Handbook
            presents legal and policy requirements for community involvement. The
            Handbook identifies the CIP as the comprehensive strategy for all community
            involvement and outreach at a site. It specifies activities to address community


11-P-0430                                                                                     1
            concerns and expectations. Region 8’s guide for outreach activities at Libby is the
            community engagement plan (CEP).

            The Superfund Community Involvement Toolkit suggests developing one overall
            communication strategy and many message specific strategies to meet the
            communication needs of a site. These needs are outlined in the CIP. The Toolkit
            suggests incorporating the overall communication strategy as part of the CIP. The
            Toolkit also recommends elements to plan for communication. These elements
            include identifying goals, key messages, audiences, concerns, activities, and
            timelines. It also includes setting measures for success and feedback mechanisms.
            These elements are described in appendix B.

Noteworthy Achievements
            Region 8 communication efforts at the site          Figure 1: Libby webpage index
            exceed minimum community involvement                         Region 8 Libby pages
            requirements. Region 8 has selected
            spokespersons, conducted community                      Libby Home Page
            interviews, prepared a CEP, and established an          Major Milestones
            information repository. Region 8                        Site Documents
                                                                    Community Involvement
            communicates with the public by providing               Frequent Questions
            information in fact sheets, mailings,                   Risk Assessment
            newspapers, public meetings, and letters. For           Cleanup Activities
            example, site team members travel to Libby              Overview of Asbestos
            monthly to meet with community groups.                  Asbestos in Your Home
                                                                    Asbestos Health Risks
            Region 8 also makes information available to            Sampling and Analysis
                                                                    Public Health Emergency
            the public on its website. Since the start of our       Contacts
            review in November 2010, EPA has updated
            the Libby website and expanded the Frequently       Source: EPA Region 8 Libby Asbestos
                                                                website, http://www.epa.gov/libby/,
            Asked Questions (FAQs) section. In January          January 2011.
            2011, the OIG found over 280 documents on
            the EPA Libby website.

            In 1999, Region 8 established an information center in downtown Libby. The
            center is a community resource that provides information about EPA’s work. We
            identified approximately 30 handouts on display at the center. Additional
            documents were available in binders and on shelves. Region 8 also has a database
            of resident inquiries. Since 2005, a project manager has been located at the
            information center.

            Region 8 also provides support through its environmental resource specialist
            (ERS) located in Libby. The ERS assists residents with questions about
            vermiculite and asbestos. The ERS has responded to over 475 phone calls since
            2007.




11-P-0430                                                                                         2
Scope and Methodology
            We conducted this evaluation from November 2010 to June 2011 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objective. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objective.

            We reviewed EPA policies and guidance to identify the requirements for
            community involvement and communications. We also reviewed Region 8’s CEP
            described by the site team as the guide for conducting outreach activities at the
            site.

            We analyzed minutes and recordings from public meetings. These meetings
            included those of the community advisory group, technical advisory group, board
            of county commissioners, and city council. We also reviewed information center
            database entries from the Libby Hotline and the ERS call log.

            We interviewed staff from the EPA Office of Solid Waste and Emergency
            Response and the Region 8 Superfund Remedial Response Program. We also
            reviewed the information on EPA’s Libby website and at the Libby information
            center. The scope of our evaluation includes Region 8 communication and
            activities from 2007 to 2010.




11-P-0430                                                                                       3
                                  Chapter 2

     Overall Communication Strategy Needed for the 

             Libby Asbestos Superfund Site

            Region 8 does not have an overall communication strategy to plan, coordinate,
            and evaluate communication efforts at the Libby Asbestos Superfund Site.
            Despite extensive communication efforts, Region 8 has not fully satisfied
            community concerns about health risks or effectively communicated the limits of
            its risk assessment. Residents also have recurring questions about
            recontamination, the export plant, and activity sampling, even though Region 8
            has provided information on those subjects. We also found that many public
            documents may be difficult for Libby residents to understand. These documents
            are often written for a highly educated audience. While not required, an overall
            communication strategy can help Region 8 evaluate and improve its
            communication activities. Region 8’s CEP could serve as the overall
            communication strategy with the addition of guidance-recommended key
            elements. These include key messages, timelines, measures of success and
            feedback mechanisms.

Libby Residents Concerned About Health Risks and Site Activities
             
            Region 8’s communication efforts may never fully address the community’s main
            concern. Community members consistently ask, “Is the Libby site safe?” Region 8
            has performed considerable risk communication over the last 2 years. This includes
            explaining risk assessments and their limitations on its website. However, Region 8
            staff noted that many Libby residents still expect that EPA’s pending risk
            assessment will provide answers on safety. Risk assessments are not designed to
            definitively determine whether a site is safe. Instead, they identify levels at which
            the risk posed to human health is low enough to warrant no further cleanup action.
            Region 8 maintains that it addresses the uncertainty of not having a risk assessment
            through cleanup efforts. EPA’s goal is to eliminate exposure pathways to reduce
            exposure risk, and therefore, health risks. Completion of the risk assessment has
            been postponed from September 2010 to September 2012. Until then, Region 8
            could use residents’ questions and feedback to plan communications that address
            health and safety concerns and risk assessment limitations.

            In the interim, Libby residents want more information on ongoing and planned
            activities. Residents’ questions include whether activity sampling results suggest
            that Libby schools are safe, and what steps residents can take to reduce exposure
            risk. Table 1 provides a detailed list of issues we identified as being raised in
            public meetings and through EPA databases from 2007 to 2010. Recurring
            concerns may show that Region 8 needs to address them more clearly.



11-P-0430                                                                                        4
            Table 1: Libby Resident Concerns Identified by OIG, 2007–2010
             Risk communication
                  Long-term safety of living in Libby and the safety of residents’ homes
                  EPA’s methodology for developing cleanup criteria
                  Status and preliminary findings for the ongoing toxicity study and risk
                   assessment
                 Precautionary measures to reduce exposure
             Recontamination
                   Exposure to asbestos during cleanup and from asbestos left in place after
                    cleanup
                 EPA procedures and enforcement efforts to address and prevent asbestos
                    recontamination
             Export plant
                  Rationale for making cleanup decisions prior to completion of a risk assessment
                  Opportunities for future community involvement in cleanup decisions
                  Asbestos exposure risk and risk notification
                  Responsibility for day-to-day site maintenance activities
             Activity sampling
                     Updates for all ongoing and planned activity sampling activities
                     Results and interpretation of all past activity sampling activities, including their
                      limitations
            Source: Minutes and recordings of public, community advisory group, technical advisory group,
            board of county commissioners, and city council meetings; and information center database
            entries, including Hotline and ERS call logs.



Readability Levels of Outreach Products Limit Communication
            Material in the FAQs section of the Region 8 Libby website is written for a highly
            educated audience. Some portions of the FAQs for the Libby site are written at a
            graduate-school level. On average, the FAQs are written at a 15th-grade level.
            This equates to high school plus 3 years of college. We calculated the level of
            Region 8 responses to its FAQs with the Flesch-Kincaid Grade Level Readability
            Formula. This formula uses the average number of words per sentence and the
            average number of syllables per word. For example, this report is written at a
            12th-grade level. EPA recommends that documents be written for a broad public
            audience and suggests that they be written at an eighth-grade level. Table 2 details
            the reading grade levels of each FAQs section. Material written at these levels
            may be difficult for the general public to understand.




11-P-0430                                                                                                    5
            Table 2: FAQ section reading grade levels
                                                                           Flesch-Kincaid
                              FAQs section title
                                                                         reading grade level
             General Interest                                                      14
             Action Levels and Removal Clearance Criteria                          15
             Activity-Based Sampling                                               15
             Asbestos Ambient Air Issues                                           17
             Background Levels                                                     11
             Communication and Public Involvement                                  17
             Former Export and Screening Plants                                    14
             Grace Settlement Funds                                                13
             Kootenai Business Park                                                15
             Progress of Cleanup                                                   17
             Public Health Emergency                                               14
             Public Health Risks                                                   18
             Records of Decision                                                   15
             Residential Cleanups                                                  13
             Risk Assessment                                                       15
             Schools                                                               15
             Temporary Relocation of Property Owners in Libby                      18
             Worker Concerns                                                       17
             Average of All FAQs                                                   15
            Source: EPA OIG analysis of Flesch-Kincaid readability level for all FAQ responses found
            on Region 8’s Libby website as of January 2011.


CEP Could Serve as Communication Strategy With Addition of
Key Elements

            Region 8 does not have an overall communication strategy to guide, coordinate,
            or assess communication efforts. Region 8’s CEP could serve as the overall
            communication strategy with the addition of key elements. These elements
            include key messages, general timelines, measures of success, and feedback
            mechanisms. Although not required, an overall communication strategy could
            guide Region 8’s efforts to better determine and address information needs in the
            community.

            Identifying Key Messages Could Improve Information Consistency

            Region 8 does not communicate consistent key messages to Libby residents. We
            found variations in what Region 8 staff stated to be key messages. During
            interviews, Region 8 staff also noted that inconsistent messages have made
            communication of certain topics challenging. One example is health and exposure
            risks. Also, information center staff did not have set materials to provide to new


11-P-0430                                                                                              6
            residents for a variety of general questions. Center staff limited their
            recommendations to readily available handouts. Interviews show that the
            information center staff is the community’s primary information source.
            However, the information center maintains only a subset of Region 8’s outreach
            products in hard copy. Outreach products at the information center, and in
            general, should reflect key messages and be accessible to residents. Overarching
            key messages ensure that Region 8 staff delivers consistent and helpful messages
            to Libby residents.

            Timelines Could Help Libby Residents Know When EPA Will Provide
            Information

            Region 8 can increase its updates of events and publications through general
            timelines. Residents want to know when EPA will provide information. We found
            that many residents had questions about the status and timeline for the risk
            assessment and activity sampling results. Residents want predictable
            communication about events, the status of EPA’s efforts, and future plans. EPA’s
            Toolkit recommends establishing a timeline for community involvement activities
            that are linked to technical milestones or referenced seasonally or quarterly.
            Activities such as annual briefings and updates should be provided on a
            predictable basis. However, we found they often are not. Region 8 could create a
            forum where upcoming events and new information are constantly posted and
            updated.

            Measures of Success Could Assist Region 8 in Evaluating Its
            Communication Efforts

            Region 8 has not established measures of success to assess the effectiveness of its
            communication efforts. Measures may include tracking the number of people
            reached and changes resulting from activities. Region 8 has exerted much effort
            and many resources toward communication and plans to increase its efforts.
            Region 8 needs to ensure that its efforts are successful and the community
            understands its messages. Establishing measures could help Region 8 improve
            communications.

            Mechanisms for Obtaining Public Concerns and Feedback Could
            Help Region 8 Meet Expectations and Information Needs

            Region 8 has not incorporated formal feedback mechanisms to regularly identify
            public concerns. Region 8 formally collects resident feedback during mandatory
            updates of the Libby CEP and Superfund milestones. However, we found that
            Region 8 typically plans communications based on informal discussions with
            community members. EPA’s Toolkit provides many mechanisms for obtaining
            public input. Some are listed in table 3. Site teams can use the Toolkit to evaluate
            and refine their work. Region 8 could collect and evaluate feedback through its
            website, public meetings, and the information center databases. Through these



11-P-0430                                                                                          7
            mechanisms, Region 8 could better meet the expectations and information needs
            of the community.

             Table 3: Examples of mechanisms for identifying concerns and gathering feedback

              	   Release a draft of the CEP for feedback from the community.
              	   When analyzing sampling results, announce results and initial interpretation, and
                   solicit comments.
              	   Hold informal comment periods to accept feedback on proposed site activities,
                   decisions, or issues.
              	   Ask people to fill out an evaluation card following meetings, presentations, or
                   workshops.
              	   Use comment boxes for general feedback.
              	   Conduct a community satisfaction survey midway through cleanup.
              	   Use feedback questionnaires for input from community advisory groups, focus
                   groups, and public meetings.
              	   Post a website survey that the public can access and fill out.
             Source: EPA Superfund Community Involvement Toolkit.


Conclusion
            An overall communication strategy can help EPA better plan and evaluate
            communication activities and products. In addition, Region 8 documents could be
            more useful if written for the general public. Region 8’s CEP can serve as its
            overall communication strategy by developing feedback mechanisms and success
            measures to ensure that the public receives timely key messages.

Recommendations
            We recommend that the EPA Regional Administrator, Region 8:

                    1.	 Ensure that Libby outreach products are readable for a general
                        audience.

                    2.	 Revise the Libby CEP to serve as the overall communication strategy
                        by including:

                            a.	 Key messages that address specific public concerns and site
                                activities
                            b.	 Timelines for community involvement activities and outreach
                                products
                            c.	 Measures for successful communication
                            d.	 Mechanisms for identifying community concerns and
                                collecting feedback

                    3.	 Implement a process for ongoing evaluation of Region 8’s
                        communication strategy and incorporate results into community
                        involvement planning.


11-P-0430                                                                                              8
EPA Region 8 Response to Draft Report and OIG Evaluation
            The OIG reviewed and considered Region 8 comments. The report was revised
            where appropriate. Region 8’s comments are in appendix C and the OIG’s
            detailed evaluation is in appendix D. In its official response, Region 8 agreed with
            recommendations 1 and 3 but did not fully agree with recommendation 2.
            However, Region 8 agreed with all three recommendations after followup
            discussions. The region has committed to completing actions that will meet the
            intent of the recommendations.

            Region 8 agreed with our first recommendation to revise the FAQs section of the
            website. It will also assess the readability level of future fact sheets to ensure that
            both are at or below a 12th grade reading level.

            Region 8 initially disagreed with recommendations 2a and 2b. Region 8 stated
            that key messages and timelines are more appropriate for communication
            strategies and not CIPs. The CEP is Libby’s CIP. Region 8, however, offered to
            provide an approximate timeline of activities for the upcoming year at annual
            meetings and through annual fact sheets. Because Region 8 does not have an
            overall communication strategy, Region 8 agreed in discussions to use the CEP as
            this strategy. It will include in the CEP the recommended elements from the
            report. Overarching key messages, such as for risk communication, will be
            developed by the site team and through resident interviews. General timelines
            informing the community of upcoming events will be available and routinely
            updated at the information center and on the Libby website.

            In its official response for recommendation 2d, Region 8 indicated it will expand
            efforts to collect feedback and identify concerns. These include using tear offs on
            fact sheets, a comment link on the Libby website, suggestion boxes at information
            centers, and comment cards at community meetings and availability sessions. In
            addition, Region 8 agreed in discussions to adapt its current database system to
            uniformly store, track, and analyze residents’ questions and feedback.

            Region 8’s official response concurred with recommendations 2c and 3. Region 8
            will identify quantifiable measures of success and announce their results at annual
            update meetings and in fact sheets. In addition, Region 8 indicated in discussions
            that it will implement a survey tool to measure customer satisfaction. To further
            address recommendation 3, Region 8 will conduct a special round of interviews in
            2012. These interviews will focus on community involvement effectiveness at the
            site. The results will be incorporated into the CEP. Public comments will also be
            solicited for the next major revision of the CEP.

            In its final response to this report, Region 8 should provide a corrective action plan
            that includes brief descriptions of the actions that will be conducted to implement
            each recommendation, milestone or target dates, and the responsible offices.




11-P-0430                                                                                             9
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed-To
    No.      No.                         Subject                        Status1      Action Official           Date      Amount      Amount

     1        8     Ensure that Libby outreach products are readable        O     Regional Administrator,
                    for a general audience.                                             Region 8

     2        8     Revise the Libby CEP to serve as the overall            O     Regional Administrator,
                    communication strategy by including:                                Region 8
                      a. Key messages that address specific public
                         concerns and site activities
                      b. Timelines for community involvement
                         activities and outreach products
                      c. Measures for successful communication
                      d. Mechanisms for identifying community
                         concerns and collecting feedback

     3        8     Implement a process for ongoing evaluation of           O     Regional Administrator,
                    Region 8’s communication strategy and incorporate                   Region 8
                    results into community involvement planning.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0430                                                                                                                                  10
                                                                                          Appendix A

                  Description of Operable Units at the
                    Libby Asbestos Superfund Site

  Operable unit                                      Site description
                   The former export plant, situated north of downtown Libby, which includes the
       1
                   embankments of Highway 27, the former export plant, and Riverside Park.
                   The former screening plant, which includes areas impacted by contamination from
       2           the plant and also includes the Flyway property, a privately owned property, and the
                   Rainy Creek Road Frontage and Highway 37 right-of-way.
                   The former vermiculite mine, which includes the surrounding geographic area
       3
                   impacted by releases from the mine, including Rainy Creek and the Kootenai River.
                   The City of Libby, which includes residential, commercial, industrial, and public
       4           properties, including schools and parks. OU4 includes only those properties not
                   included in other OUs.
                   The Stimson Lumber Mill site, which includes all former properties that are now
       5
                   owned and managed by the Kootenai Business Park Industrial Authority.
       6           The Burlington Northern Santa Fe Railroad yard and transportation corridors.
                   The Town of Troy, which includes all residential, commercial, and public
       7
                   properties, located approximately 20 miles west of downtown Libby.
                   U.S. and Montana state highways and secondary highways that lie within the
       8
                   boundaries of OU4 and OU7.




11-P-0430                                                                                              11
                                                                                        Appendix B

             Communication Strategy Key Elements
The Superfund Community Involvement Toolkit identifies basic elements, key questions, and
other guidance for site teams to consider when developing overarching communication strategies
for Superfund sites. These basic elements and related key questions are summarized below.

Strategy elements                              Examples of key questions
                       What does EPA want to achieve with the communication? Is EPA
                        providing information, increasing awareness, encouraging action, changing
                        behavior, promoting community participation, or something else?
Goals                  Are goals clear, simple, action-oriented statements about what EPA
                        hopes to accomplish through outreach?
                       Do the other elements of the strategy relate to the goal(s)? Once you
                        have established your goals, every other element of the strategy should relate
                        to those goals.
                       Are the messages identified? Focus on two to three key messages and
Messages
                        rank them by importance, timeliness, or other factors.
                       Have all potential audiences been identified?
                       Once messages are identified, ask yourself: Who is involved, affected,
Target audience
                        interested? What information do they already have? What information
                        do they need?
                       Has the community involvement plan been prepared based on
                        community interviews and other relevant information?
Public concerns
                       Is the plan issue-specific in that it identifies the community’s issues,
                        needs, and concerns?
                       Are specific community involvement activities and outreach products
                        identified?
Activities             Do activities and outreach products address public concerns? The
                        community involvement plan should identify specific activities, outreach
                        products, or programs that EPA will use to address the community‘s
                        concerns.
                       Is there a timeline for activities throughout the pipeline (e.g., as the site
                        team gets sampling results, we will hold a series of ground water workshops),
Timelines
                        or referenced by seasons (e.g., by spring 2002, we will hold a ...)?

                       How will EPA know if its communication goals are met?
Measures
                       Are measures of success identified?
                       Are there mechanisms for audiences to provide feedback?
                       Is EPA gathering and reviewing feedback after delivery? Feedback can
                        be used to evaluate progress and identify concerns for planning information
Feedback
                        needs.
mechanisms
                       Based on audience feedback and measures for success, determine: What
                        are the strategy strengths? Where can it be improved? How should your
                        strategy be amended to ensure continued effectiveness?




11-P-0430                                                                                           12
                                                                                   Appendix C

             EPA Region 8 Response to Draft Report



                                         June 28, 2011

Ref: 8RA

MEMORANDUM

SUBJECT:       Region 8’s Response
               OIG Draft Evaluation Report:
               EPA Can Improve Its Communication Efforts at
               Asbestos Superfund Site in Libby, Montana
               Project No. OPE-FY11-0005

FROM:          James B. Martin
               Regional Administrator

TO:            Wade T. Najjum
               Assistant Inspector General for Program Evaluation

Attached is EPA Region 8’s response to the Office of Inspector General’s (OIG) Draft
Evaluation Report Project No.OPE-FY11-0005, EPA Can Improve Its Communication Efforts at
Asbestos Superfund Site in Libby, Montana. The response addresses factual issues, provides
information on Region 8’s community involvement program in Libby, Montana, indicates
concurrence or nonconcurrence with each finding and proposed recommendation, and identifies
alternative approaches to addressing some recommendations.

If you have any questions regarding this report, please contact me or your staff may contact
Sonya Pennock, Supervisor, Public Affairs and Involvement/Office of Communications and
Public Involvement, at 303-312-6600 or pennock.sonya@epa.gov.

Attachment

cc: 	   Mathy Stanislaus, Assistant Administrator for Solid Waste and Emergency Response
        Jim Woolford, Director, Office of Superfund Remediation and Technology Innovation
        Paul Anastas, Assistant Administrator for Research and Development




11-P-0430                                                                                      13
                    Environmental Protection Agency, Region 8

                                   Response to

               Draft Evaluation Report – Office of Inspector General

    EPA Can Improve Its Communication Efforts at Asbestos Superfund Site in Libby 

                              Montana, June 2, 2011


At a Glance: Please revise to reflect any changes made in response to Region 8’s comments.

       Because EPA’s community involvement program in Libby is so extensive, it may have
been difficult for the Inspector General (IG) to determine the extent of our effort in that
community. In addition to responding to recommendations, Region 8’s comments are designed
to provide the IG with more information on community involvement and on Region 8’s
community involvement efforts in Libby.

Chapter 1

Superfund Communication Strategies
p.1:“EPA’s communication strategy is called the community engagement plan (CEP).”
p.2: “These elements include identifying goals, key messages, audiences, concerns, activities and
timelines. It also includes setting measures for success and feedback mechanisms.”

Response: Communication strategies are very different from community involvement plans. It
appears that the IG cited the Superfund Community Involvement Toolkit tool for communication
strategies (Tool #3), not community involvement plans (Tool #7).

   	 Distinction between communication strategy and community involvement plan.

            o	 Tool #3 – Communication strategies are a tool for planning EPA’s
               communications around a short-term, specific issue, event, action or problem. In
               2010, EPA produced communication strategies for the release of activity-base
               sampling data in Libby schools, responding to difficult citizens, OU3 Slash Pile
               Burning, risk assessment communications and preparation for a CBS News
               interview. So far in 2011, Region 8 has drafted two communication strategies for
               Libby – Annual Update and Release of Draft Toxicity Values. Region 8 uses
               communication strategies as an internal communication planning tool.

            o	 CI Toolkit #7 – Community involvement plans are required by the National
               Contingency Plan. They are long-term plans that lay out a broad outline for
               communication and involvement over a period of years (up to 5 years). They are
               based on community interviews. The Libby community involvement plan was


11-P-0430                                                                                      14
               titled “Community Engagement Plan” to reflect the preference of the Assistant
               Administrator of EPA’s Office of Solid Waste and Emergency Response for the
               term “community engagement” instead of “community involvement.” The Libby
               Community Engagement Plan was updated following the OU1 & 2 Records of
               Decision in 2010.

Noteworthy Achievements

Response: This section gives short shrift to the vast amount of community involvement and
communication that has taken place at the site. Here are some examples:

   	 An EPA project manager is onsite in Libby and is available to Libby residents for 

      responses to questions and concerns. 


   	 Other Libby site team members travel to Libby monthly and meet with a vast array of
      community groups and individuals including the Lincoln County Commission, Libby
      City Council, Healthy Communities Initiative (A business and public sector group),
      Chamber of Commerce, Lincoln County Health Board, Libby Technical Assistance Grant
      recipients, and Community Advisory Group. We meet with other groups as the need and
      interest arise. We host periodic drop-in availability sessions where individuals can drop
      by and raise questions and concerns with staff. Since the beginning of 2011, we have
      hosted nine such availability sessions. We host at least one public meeting each year,
      frequently more. The timing of more formal public meetings is dependent on when a
      topic is ripe: annual update meeting, proposed plans, release of sampling results, release
      of draft toxicity values, etc.

   	 We regularly produce fact sheets and other communication materials. For example, in
      2010, EPA produced two proposed plans, the annual project update fact sheet, a fact
      sheet on activity-based sampling and a guide to homeowners prior to the onset of
      construction on their properties. So far in 2011, we have updated all of the six existing
      best practices fact sheets, and drafted the annual update fact sheet, a new best practice
      fact sheet for homeowners performing yard work, a fact sheet summarizing the Libby
      story, and a fact sheet describing the process for developing toxicity values.

Chapter 2 – Public Communications Can Be Improved at the Libby Asbestos Superfund
Site.

Libby Residents Concerned About Health Risks and Site Activities

P.4: First paragraph, last sentence. “Until then, Region 8 should be clearer about what health and
safety questions these results can and cannot address.”

Response: In the past two years, EPA has performed considerable risk communication in Libby.
At our monthly meetings with community groups, much of our discussion hinges around risk-


11-P-0430                                                                                         15
related issues. We’ve talked with and met with the City Council and David Thompson Search
and Rescue building tenants about risks associated with usage of the park and search and rescue
facility. EPA has produced and distributed seven best practices fact sheets that guide Libby
residents on ways to reduce potential exposures to Libby Amphibole asbestos as they perform
certain activities. Over the years, EPA has discussed risk assessment in many setting with
existing groups like Libby City Council, Technical Assistance Grant (TAG) recipient,
Community Advisory Group (CAG) and at public meetings and availability sessions. In early
2011, EPA conducted a series of 21 workshops in Libby on the risk assessment process. The
presentation at these sessions clearly explained what a risk assessment does and what it does not
do. We also have posted Q & As on the web page with this information.

The fact that there are no Libby Amphibole asbestos-specific toxicity values has complicated our
ability to make definitive assessments of site risks.

In May 2011, EPA released the draft toxicity values for Libby Amphibole asbestos. This was a
precedent-setting action. It is not EPA policy to provide information to the public about draft
Integrated Risk Information System (IRIS) toxicity values that are still undergoing review within
EPA and intergovernmental review. The Agency waits until the formal public comment process.
However, given the impact that the draft toxicity values will have on EPA’s assessment of the
risks and subsequent cleanup decisions, the Agency felt it was appropriate to provide the draft
IRIS toxicity information before it went to intergovernmental review. The week of May 3, 2011,
headquarters and Region 8 staff met with key stakeholders and groups, hosted a public meeting
and held 2 availability sessions to discuss the draft values and initial information on how those
values might impact site risks (A total of 18 meetings were held.). These meetings were followed
by more meetings and availability sessions the week of May 10, 2011. At these meetings,
citizens asked questions, shared opinions and made suggestions to EPA staff. At these meetings,
we provided the public with special annotated copies of the PowerPoint presentation, the annual
update fact sheet, a background fact sheet on EPA’s involvement in Libby and a fact sheet
explaining what toxicity values are, how the values are used in the risk assessment process, and
what the IRIS review process for the draft toxicity values will be. Region 8 has since begun
discussions with key stakeholders on the impact the draft values have on our ability to make
cleanup decisions for OUs 5 and 8.

P4, last paragraph: “In the interim. Libby residents want more information on ongoing and
planned activities. Residents’ questions include whether activity sampling results suggest that
Libby schools are safe and what steps residents can take to reduce exposure risk.”

Response:

At the 2010 annual update public meeting EPA presented the sample results from Libby schools
to the community and explained their significance. EPA also met with the Libby School District
to explain the results. At the May 2011 public meeting on the draft toxicity values, EPA



11-P-0430                                                                                         16
specifically showed how those draft toxicity values, coupled with exposure data impacted our
understanding of risks at the Libby schools. We also are placing this information in the FAQ
section of the Libby web page. EPA has produced and distributed seven best practice fact sheets
that guide residents on how to reduce exposures has they perform certain activities.

P. 5 Table 1 Recurring Communication Issues

Response:

Please clarify if the IG is suggesting that the matters are not resolved for lack of an effort at
communication. EPA has exerted considerable effort to address the concerns identified in this
table and will continue to do so. In some cases, EPA does not yet have enough information to
fully address the issue. In other cases, some citizens disagree with EPA’s response. Below is a
summary of our efforts:

   	 Risk Communication:

            o	 EPA has discussed risks and its approach to risk reduction throughout the process.

            o	 So far in 2011, EPA has conducted a series of 21 risk assessment workshops and
               has released draft toxicity values for Libby Amphibole asbestos.

            o	 As the IG pointed out, EPA doesn’t use the term “safe.” Our goal is reduce risk
               from exposure to target levels. EPA staff have explained this distinction in fact
               sheets, decision documents, web site Q & As, and at meetings.

            o	 Until the IRIS process for identifying toxicity values for Libby Amphibole
               asbestos is completed, EPA cannot produce a final risk assessment.

            o	 In the meantime, EPA is using existing toxicity information for asbestos to guide
               our cleanup criteria for interim response actions. During our monthly meetings we
               keep citizens apprised of the status of response activity and study progress.

            o	 EPA was not in a position to discuss the toxicity values specific to Libby
               Amphibole asbestos until the information had been reviewed within EPA. That
               review was completed at the end of April 2011.

            o	 In May 2011 EPA released the draft toxicity values that are undergoing IRIS
               review. At that time EPA conducted extensive public outreach. The process used
               is discussed above.

            o	 EPA has developed a series of seven best practice fact sheets that provide
               information on precautions that residents can take to reduce exposures. These fact
               sheets are distributed at public meetings, available in the Libby and Troy
               information centers and posted on the web page. EPA will continue to develop


11-P-0430                                                                                           17
               best practices fact sheets when sampling identifies an activity that might increase
               exposure to Libby Amphibole asbestos.

   	 Recontamination

            o	 During response actions considerable effort is made to ensure that dust from
               construction is not spread. The soil is watered down prior to the onset of work and
               kept wet during the response action. The requirement is that no dust be visible
               during the response action. In addition, EPA monitors the air to confirm that dust
               suppression efforts are successful. Trucks transporting contaminated material
               must follow an extensive protocol laid out in the Remedial Action Work Plan
               (RAWP) for making sure that the contaminated material is not released on roads.

            o	 EPA’s Environmental Resource Specialist has worked with the city and local
               construction firms to help them use similar controls when they are disturbing soil
               in the community. EPA has discussed its protocols with the city, the county, the
               Technical Assistance Grant recipient, the Community Advisory Group, and with
               private citizens. EPA also has included the information on the site web page, in
               the annual update fact sheet and in all the best practices fact sheets.

            o	 The potential for recontamination is a continuing concern for EPA. This year, in
               response to community feedback, EPA revised its removal action approach in
               order to reduce the potential for recontamination by addressing alleys adjoining
               properties undergoing response actions, removing all shrubs and trees in
               contaminated soil and starting to conduct residential response actions on a
               neighborhood-by neighborhood basis. This revised approach was discussed at the
               public meetings that were held in May, in small group meetings with property
               owners and explained in the update fact sheet.

            o	 EPA will undertake activity-based sampling efforts this year and in 2012 designed
               to better understand the potential for recontamination.

            o	 In addition, preventing long-term recontamination will be the focus of
               institutional controls. For the past few years EPA has convened a work group that
               includes local government and private citizens that will help develop long-term
               operations and maintenance protocols for the site. In 2011, EPA began discussing
               institutional controls at public meetings and held a public Q & A session on the
               topic. EPA will continue to seek input from the community as we begin to flesh
               out options for long-term institutional controls.




11-P-0430                                                                                        18
   	 Export Plant

            o	 Prior to and during the 60-day public comment period for the OU1 proposed plan
               there was extensive discussion with local officials, community groups and at the
               public comment meeting about EPA’s decision to produce a Record of Decision
               (ROD). Some elected officials and community members expressed their
               opposition to producing a ROD prior to the availability of the final risk
               assessment. After considering public input, EPA documented its rationale for
               proceeding with the ROD in that document, in the response to comments attached
               to the ROD and on the web page. In response to public comments, EPA included
               a provision in the ROD that, following the construction of the remedy, the Region
               will conduct activity-based sampling and, using the Libby Amphibole asbestos-
               specific draft toxicity values, update our assessment of risks to be sure that the
               remediation is protective.

            o	 EPA continues to meet at least monthly with the city in a public forum to discuss
               the cleanup of OU1. We have provided risk information to the city and have
               marked areas at the park that should not be disturbed. The property is owned by
               the city. The city has a responsibility to notify those given permits for park use of
               the precautions that need to be taken. The remediation of the former export plant
               property is scheduled for the 2011 construction season.

   	 Activity-based sampling

            o	 In 2010, EPA developed and distributed flyers and published a public notice on
               activity-based sampling (ABS) explaining why we were doing it and describing
               what people were likely to observe. EPA also has explained the ABS results as
               they relate to specific areas with the appropriate stakeholders such as the school
               board. ABS information and sample results are posted on the Libby web page.

            o	 At the May 2011 public meeting, EPA described its activity-based sampling plans
               for 2011.

            o	 Information and questions about ABS are included on the site web page.

Readability Levels of Outreach Products Limit Communication

Response:

Because of the technical nature of some of the subject matter, EPA continually struggles with the
difficulties of making its information understandable to citizens. There is an ongoing “pull and
tug” between the need to be accurate and the need to be easy to understand. In addition, there are
some residents in Libby who have accused EPA of “dumbing down” its informational materials.
Others have requested that we strive to make our materials easier to understand. A random


11-P-0430                                                                                           19
analysis of fact sheets produced in the past two years indicates that fact sheet reading levels
range from Grades 9.9 to 13.8. We strive to reach a 12th grade reading level or below. We agree
that we should have paid closer attention to the reading level of the FAQs and will review and
revise either by rewriting or adding a simplified summary at the beginning of the question.

Addition of Key Elements Could Strengthen Region 8’s Communication Strategy

Response:

It appears that the IG is applying the communication strategy guidelines to the community
involvement plan. As explained in an earlier response, they are different documents that serve
different purposes.

   	 Identifying Key Messages Could Assist Region 8 staff.

            o	 Because the community involvement plan is a long-range (up to 5 years)
               communication plan, it would be very difficult to include key messages that
               would remain relevant for that period. When EPA develops communication
               strategies for specific actions, issues, events, it does include key messages
               pertinent to that subject and incorporates these messages in its outreach associated
               with the specific action, issue or event.

      Timelines Could Help Libby Residents Know When EPA Will Provide Information

            o	 EPA meets monthly with various community groups including public meetings
               with the TAG and CAG. These meetings are held on the same day and time each
               month and are noticed in the newspaper.

            o	 We have found that trying to arbitrarily set time frames for formal public
               meetings (for example, quarterly meetings) is not an effective use of community
               or EPA staff time. If there is no new information to provide and discuss, people
               who come to the meeting feel that their time has not been well used. Instead, in
               consultation with elected officials and other key stakeholders, we plan formal
               public meetings when we have information that will be of interest to the
               community such as reporting sample results, annual pre-construction season
               meetings, and release of draft toxicity values. We also hold public meetings in
               response to community requests for information on a specific topic. For example,
               EPA recently hosted a public Q & A sessions focused on the bark piles on OU5
               and future remedy operations and maintenance. EPA wants to host meetings at
               meaningful times. EPA provides several weeks’ advance notice of public
               meetings.




11-P-0430                                                                                        20
      Measures of Success Could Assist Region 8 in Evaluating Its Communication Efforts

            o	 While we try to gauge success by seeking informal public feedback, we agree that
               trying to more systematically measure community involvement is desirable.

            o	 One of the obstacles we face is that some of the tools generally used to evaluate
               effectiveness such as surveys, questionnaires and focus groups are, as a practical
               matter, not feasible due to the requirements of the Paperwork Reduction Act. It
               takes approximately 6-9 months to get an Information Collection Request
               approved by OMB.

            o	 The Community Involvement Impact Analysis Project referred to in Table 3 is no
               longer available and the questionnaire has expired.

   	 Mechanisms for Obtaining Public Concerns and Feedback Could Help Region 8 Meet
      Expectations and Information Needs.

            o	 As indicated above, there are obstacles to using some tools for seeking feedback.

            o	 Periodically, EPA has included “tear offs” in fact sheets seeking feedback on the
               understandability of the information, identifying other information people might
               want to have, etc. We have received feedback through this approach that has
               helped us identify future topics for fact sheets and areas where we need to
               improve our communications.

            o	 Periodically, EPA provides comment cards at public meetings seeking input on
               the understandability of the information presented and seeking input on other
               topics of interest and suggestions for improving the public meetings. The
               feedback received through this mechanism has helped EPA’s site team learn if
               meeting presentations have been clear and understandable and if the format
               worked for the community.

            o	 EPA regularly seeks informal suggestions for improving our public process from
               those individuals and groups with whom we meet and incorporates these
               suggestions into our program when feasible.

The goal of community involvement in the Superfund process is to make sure that interested
citizens at Superfund sites have access to site-related information and an opportunity to
participate in EPA’s process. Community involvement efforts cannot guarantee that citizens will
agree with EPA’s actions, assure that EPA can do what citizens’ want, or provide answers to
questions for which the necessary information is not yet available. Region 8 believes that the
extensive community involvement process in Libby provides easy access to site-related
information and many opportunities for interested citizens to participate in our remedial process.



11-P-0430                                                                                       21
Over the years, EPA has responded to input received from the public. For example, in response
to concerns about the shrinking economic base of the community, EPA hosted two
redevelopment workshops. When Stinger Welding was considering moving to Libby, EPA
worked with the city and the company to make sure that contamination issues were resolved to
expedite the move. In 2009, in response to long-standing community concerns about health care
for those with asbestos related disease, EPA issued its first ever finding of a public health
emergency under Superfund which paved the way for the Department of Health and Human
Services to provide health care assistance. At the present time, in response to the city’s desire to
expand Riverside Park, EPA is working with the city to tailor the OU1 cleanup to facilitate
redevelopment. EPA is also providing the city with funding for part of this work. Because
residential property owners have been dissatisfied with the quality of replacement soil that is
being used in residential response actions, this year EPA has brought in a soils expert to advise
the agency on how to amend the replacement soil so that it provides a better growing medium.

Recommendations

   1.	 Ensure that Libby outreach products are readable for a general audience.

        Response:

            	 EPA concurs with this recommendation.

            	 EPA will run the Flesch-Kincaid Grade Level Readability Formula on all future
               fact sheets in order to produce fact sheets at or below a 12th grade reading level.

            	 EPA will revise the FAQ section of the of the web page and either rewrite Q & As
               that require more than a 12th Grade reading level or include a simple summary of
               the response at the beginning of the answer. The revision of the FAQ section will
               be completed by 12/31/11.

   2.	 Revise the Libby CEP to include

            a.	 Key messages that address specific public concerns and site activities

            b.	 Timelines for community involvement activities and outreach products

            c.	 Measures for successful communication

            d.	 Mechanisms for identifying community concerns and collecting feedback

       Response: 

           EPA partially concurs with this recommendation. 


            	 a) & b) are not appropriate for a community involvement plan. Key messages and
               timelines for activities are more appropriate for communication strategies. EPA’s


11-P-0430                                                                                            22
               communication strategies have and will continue to include key messages and
               timelines for the specific activity, issue or event.

            	 At the annual update meeting and through the annual update fact sheet, EPA will
               include an approximate timeline for site activities for the upcoming year and will
               identify those community involvement activities planned for the year and the
               approximate timing for the activities. The next annual update meeting and fact
               sheet will be in the spring of 2012.

            	 c) EPA will identify quantifiable general measures of success. The measures will
               be discussed in the spring 2012 update meeting and placed in the December 31,
               2012 addendum to the 2010 Community Engagement Plan.

            	 d) Region 8 will use fact sheet tear offs in all fact sheets, distribute comment
               cards at all public meetings and availability sessions, add a comment link on
               EPA’s Libby web page and place suggestion boxes in the Libby and Troy
               Information Centers as mechanisms for the public to identify concerns and
               provide feedback. The web page link and suggestion boxes will be in place by
               September 30, 2011.

   3.	 Implement a process for ongoing evaluation of Region 8’s communication strategy and
       incorporate results into community involvement planning.

      	 Region 8 concurs that the site team should engage in ongoing evaluation of the
         community involvement program.

      	 In response to recommendations 2.c. and 3 Region 8 will identify quantifiable
         measures of success and announce them at the annual update meeting and in the
         update fact sheet in spring of 2012. Each year at the update meeting and in the update
         fact sheet, EPA will report on these measures.

      	 Measuring community involvement effectiveness is inherently subjective. As we have
         explained in this response document, the limitations imposed by the Paperwork
         Reduction Act make evaluating community involvement, even subjectively, hard to
         accomplish. Given these limitations, Region 8 will endeavor to use the community
         interview process for community involvement plans, which is exempt from the
         requirements of the Paperwork Reduction Act, to periodically evaluate community
         involvement in Libby. In 2012, Region 8 will conduct a special round of interviews
         focused on the effectiveness of community involvement in Libby. The Region will
         report the results of these interviews in an addendum to the 2010 Community
         Engagement Plan along with an outline of actions the Region will take to address
         shortcomings identified in the interviews. The addendum will be published by
         December 31, 2012. Region 8 also will include evaluation questions in the interviews


11-P-0430                                                                                         23
            that will be conducted for the next major update of the Community Engagement Plan.
            This update will take place following the next Record of Decision or in 2015
            whichever comes first.

      	 Region 8 will solicit public comment on the next major revision of the Community
         Engagement Plan which should take place following the next Record of Decision or
         in 2015, whichever comes sooner.

      	 Region 8 will continue to seek informal feedback from the Libby community during
         monthly meetings.




11-P-0430                                                                                   24
                                                                                    Appendix D


            Detailed OIG Evaluation of EPA Response
CIP vs Communication Strategy

Region 8’s response states that communication strategies are very different from community
involvement plans (CIPs). This response indicates that the Libby CEP is not the overall
communication strategy for the site. We are aware of the difference between CIPs and
communication strategies and were informed by Region 8 staff during our review that the Libby
CEP serves as its overall communication strategy.

The Superfund Community Involvement Handbook states that “The CIP is the comprehensive
strategy for all community involvement and outreach at the site. A communication strategy for each
element of the overall CIP should guide the development and become part of the CIP” (p. 29).

Tool #3, Communication Strategies, further clarifies this by stating:

      A communication strategy is a list of messages, audiences, potential message
      vehicles, resources required, and feedback mechanisms to meet the unique
      communication needs of a Superfund Site. These needs are outlined in the
      Community Involvement Plan prepared for each site. In these cases the Community
      Involvement Plan serves as a communication strategy for the site. Message-specific
      communication strategies contain the exact details of message content, audience, and
      delivery or the individual messages you will develop. You will develop one overall
      communication strategy and many message-specific strategies. (p.1)

From our interpretation, EPA’s Toolkit advises site teams to develop one overall communication
strategy as well as many message-specific communication strategies. In cases where there is not
a separate strategy, the CIP can serve as the overall communication strategy. The Agency’s
response regarding Tool #3 references only message-specific communication strategies, which
we do not include in our discussion of the CEP. We are aware that Region 8 has created
numerous message-specific strategies, which we have reviewed. However, the focus of our
report is the overall communication strategy for the site. Since Region 8 has provided
clarification of the CEP’s purpose, we have revised our report to reflect that Region 8 does not
have an overall communication strategy. Our findings indicate that an overall communication
strategy will be useful for communications planning at Libby. Region 8 can revise the CEP to
serve as its overall communication strategy by including key elements. Our recommendations
remain unaffected by this clarification.

Recommendation 2

Region 8’s response states that key messages and timelines are not appropriate for CIPs.
Region 8 states that these are more appropriate for message-specific communication strategies
developed for specific actions, issues, and events. Recommendations 2a and 2b do not refer to
key messages or timelines for one-time events, activities, or issues that might need a “message-


11-P-0430                                                                                      25
specific” communication strategy. We are referring to the analytical process used to identify the
why, what, who, when, where, and how of relaying information for an overall communication
strategy. Overall key messages help ensure message consistency and delivery for the entire
Libby Superfund site.

Region 8’s response also states that because the CEP is a long-range plan, it would be very
difficult to include key messages that would remain relevant. We do not expect these
overarching messages to change frequently, but as the CEP is a living document, we do not
believe that adjusting these messages periodically to reflect new information is unreasonable.

We are not requesting that Region 8 arbitrarily set time frames for formal public meetings. The
Toolkit recommends establishing a timeline for community involvement activities that are linked
to technical milestones, or referenced seasonally or quarterly. Toolkit examples include: “As the
site team receives sampling results, we will hold a series of groundwater workshops,” or “EPA
will hold meetings within two weeks of the start of field work to agree on a testing cycle.”

Recommendation 2b reflects our concern that notifying residents of meetings and events a
couple of weeks in advance may not provide them with the broad roadmap they seem to want.
In addition, while it is helpful that Region 8 meets monthly with the City Council, County
Commissioners, CAG, TAG, and others, attendance at these meetings is limited. As a result, an
easily-accessible forum that is updated with upcoming events and new or changing information
may satisfy the community’s desire to be kept informed of Region 8’s activities.

EPA announced in the Federal Register on May 4, 2011, its plans to renew the OMB-approved
Information Collection Request (OMB #2050-0096), expiring July 31, 2011. Upon renewal,
Region 8 can also implement this survey as a tool for measuring customer satisfaction under
Recommendation 2c.

For Recommendation 2d, in addition to tear offs, comment cards, suggestion boxes and Web
links, Region 8 should consider how it plans to uniformly store, track, and analyze incoming
information. Region 8 already has in place a database system that tracks resident questions and
concerns that can be optimized to identify issues and run reports that further guide EPA’s efforts.

Region 8 Communication Efforts

Region 8’s response details numerous communication activities that were performed in 2011 to
address our findings. As the scope of this evaluation is limited to 2010, we will not include these
activities in our report. We encourage Region 8 to measure the effectiveness of these 2011
communication activities as well as systematically gather feedback to identify additional
concerns and issues. This will assist Region 8 to ensure that communication efforts are meeting
information needs and are presented clearly to the Libby residents.

In addition, table 1 lists the common questions asked by Libby residents during public meetings
and events that we identified during our evaluation. They are provided in this report so that
Region 8 might be aware of frequent topics of concern and seek ways, including those discussed
in the report, to more effectively identify and address these information needs in the community.




11-P-0430                                                                                        26
                                                                               Appendix E

                                   Distribution
   Office of the Administrator
   Assistant Administrator for Solid Waste and Emergency Response
   Assistant Administrator for Research and Development
   Regional Administrator, Region 8
   Agency Followup Official (the CFO)
   Agency Followup Coordinator
   General Counsel
   Associate Administrator for Congressional and Intergovernmental Relations
   Associate Administrator for External Affairs and Environmental Education
   Director, Office of Superfund Remediation and Technology Innovation,
        Office of Solid Waste and Emergency Response
   Audit Followup Coordinator, Office of Solid Waste and Emergency Response
   Audit Followup Coordinator, Region 8
   Regional Public Affairs Office, Region 8




11-P-0430                                                                              27
